APP NO. 18A1252
IN THE SUPREME COURT OF THE UNITED STATES

NATALIE ANDERSON,
Petitioner,

v.

ADAM ROBITAILLE,
Respondent,

CERTIFICATE OF SERVICE

Thereby certify that on this 21st day of January 2020, a true and correct

copy of the foregoing was served
via United States postal first-class mail, upon the following parties:

Defendant/Respondent Attomey for Adam Robitaille

Karl M. Terrell, Esq.
Stokes Wagner, ALC

One Atlantic Center, Suite 2400

1201 W. Peachtree Street, NW
Atlanta, GA 30309
Tel: (404) 766-0076

kterrell@stokeswagner.com

NH Department of Justice
Gordon J. MacDonald, Attorney General
33 Capitol Street
Concord, NH 03301
Tel: (603) 271-3658

All parties required to be served have been served,

Submitted ve
Le ale A Od ye

Petitioner, pro se
Natalie Anderson
119 Drum Hill Rd, #233
Chelmsford MA 01824
(617) 710-7093
